           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       THE SOCIAL SECURITY
    ADMINISTRATION’S REGIONAL
      OFFICE PROCEDURES FOR
   ADDRESSING EMPLOYEE-RELATED
     ALLEGATIONS IN REGION VI

   March 2004    A-06-03-13075




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       SOCIAL SECURITY

MEMORANDUM

Date:   March 8, 2004                                                  Refer To:

To:     Horace Dickerson
        Regional Commissioner
         Dallas

From:   Assistant Inspector General
          for Audit

Subject: The Social Security Administration’s Regional Office Procedures for Addressing
        Employee-Related Allegations in Region VI (A-06-03-13075)


        OBJECTIVE
        Our objectives were to evaluate the adequacy of the Social Security Administration’s
        (SSA) policies and procedures for addressing employee-related allegations, determining
        how well SSA complied with these policies and procedures, and determining whether
        SSA referred all employee-related allegations that should have been referred to the
        Office of the Inspector General (OIG).

        BACKGROUND
        SSA receives various types of allegations related to its programs, the misuse of Social
        Security numbers (SSN) and employee conduct. Some examples of employee-related
        allegations include standards of conduct, ethics violations, and the theft of Government
        property. SSA receives allegations from employees, the public, and the OIG.
        Allegations concerning SSA employees are significant because of the potential losses
        to SSA’s programs and the corresponding negative public impact. In determining the
        validity of allegations, SSA is required to obtain sufficient evidence to support or remove
        suspicion that criminal violations may have been committed.1 SSA’s policy states:




        1
            Program Operations Manual System (POMS), GN 04110.010 A.
Page 2 - Horace Dickerson


      “Prior to referral to the Office of the Inspector General, Office of Investigations
      Field Division, each potential violation and allegation must be developed by the
      field office, processing center, or other SSA office to the point where enough
      evidence has been secured to either remove suspicion or substantiate the
      violation.”2

In the Dallas Region, the Office of the Regional Commissioner (ORC) and the Center
for Security and Integrity (CSI) review employee conduct and program-related
allegations. The ORC reviews all allegations that do not appear to involve fraud. CSI
reviews all allegations that appear to involve fraud or employee misconduct that may
result in an adverse action. CSI is responsible for supporting field office managers in
developing potential fraud issues by using computer system analysis and providing
other technical support. Employee allegations that are potential criminal violations must
be referred to the OIG for appropriate action.3 Cases involving employee misconduct
that are not potential criminal violations are referred to the Center for Human
Resources’ (CHR) Employee Relations Staff for adverse actions. The ORC and CSI
complete workflow processes are illustrated in Appendix C.


                                                      Referrals of
                                                       Allegations
                                                    Received Through
                                                      OIG Hotline


                                    Dallas Region

             Allegations                       Office of the
           Received From                        Regional
         Sources Other Than                   Commissioner
           OIG Referrals
                                                      Center for Security
                                                        and Integrity




In Fiscal Years (FY) 2001 and 2002, OIG referred 37 employee-related allegations to
SSA’s Dallas Region for action. In addition, the Dallas Region received
70 employee-related allegations from sources other than the OIG.



2
    POMS, GN 04110.010 B.
3
    POMS, GN 04112.005 B.
Page 3 - Horace Dickerson


RESULTS OF REVIEW
SSA’s policies and procedures for addressing employee-related allegations were
generally adequate; however, we found the following areas need to be addressed.

      •   The Dallas Region did not refer two potential criminal cases to the OIG for
          investigation.

      •   There was inadequate case documentation to support whether allegations were
          properly resolved for 20 (19 percent) of the 107 allegations.

      •   The ORC did not retain control logs of allegations received.

We also found management control weaknesses related to accounting for and
safeguarding allegation information.

      •   The ORC’s Intranet database did not have adequate safeguards to prevent
          unauthorized access to employee allegations.

      •   CSI did not have an adequate allegation tracking system.

NON-COMPLIANCE WITH POLICIES AND PROCEDURES

Referrals to the Office of the Inspector General

We identified 14 allegations that involved a potential employee violation subject to an
OIG investigation. Two of the 14 cases were not referred to OIG’s Office of
Investigations Field Division (OIFD), as required by SSA’s policy. SSA policy4 states:

          “When the evidence and information, either directly or circumstantially,
          establishes that a potential violation may have been committed, forward the
          allegation to the OIFD. . . . Do not delay forwarding the allegation to the OIFD
          even if additional information is being developed.”

Both of the allegations involved actions on the list of alleged or suspected employee
criminal violations of the Social Security Act, relevant provisions of Title 18 of the United
States Code, the Privacy Act of 1974, and conflict-of-interest laws that must be referred
to the OIG.5 This list is attached as Appendix D.




4
    POMS, GN 04110.010 C.2.
5
    POMS, GN 04112.005 A.
Page 4 - Horace Dickerson


One allegation involved an SSA employee who allegedly completed and signed
claimants’ signatures on disability determination forms without their knowledge and
cleared one overpayment waiver of over $2,000 without management approval. The
SSA field office that identified the employee requested CSI’s assistance in obtaining
overpayment waivers information to substantiate the suspicions. While the case
documentation indicated the field office intended to refer the case to the OIG, and CSI
was willing to assist with the referral, neither made the referral. Instead, the case
documentation states a letter was sent to the employee with a proposal to remove the
employee from service. The employee filed a grievance but decided to take early
retirement. CSI was unable to explain why the case was not referred to OIG.

The other allegation involved an employee discarding SSA records without
authorization. CHR did not refer the case to the OIG because CHR staff did not
consider discarding SSA records a potential criminal action. Our Office of Investigations
(OI) informed us that the allegation in question did not rise to the level that would merit a
formal criminal investigation. If it were determined, however, that the potential for
criminal prosecution did exist, and OI were to conduct a formal investigation, we believe
the Department of Justice's willingness to prosecute the case would be diminished in
light of administrative/adverse action previously taken by SSA.

Retention of Case                                  Adequacy of Documentation
Development Documentation
                                                 100
The Dallas Region did not have
adequate documentation to                         90
either remove suspicion or                        80
substantiate the violation, as                    70
required by SSA policy, for 20 of
the 107 allegations we                            60
reviewed. Specifically, 4 of the                  50
37 allegations received from the                  40
OIG and 16 of the 70 allegations
                                                  30
received from other sources
were not properly documented.                     20
                                                  10
For the four cases referred by
                                                   0
OIG that did not have adequate                          Insufficient    File Not found      Adequate
documentation, the Dallas               Other Sources        0               16                 54
Region could not locate one             OIG Referrals        3                   1              33
case file, and three case files
did not contain sufficient                                       OIG Referrals       Other Sources
evidence to support whether the
allegation was properly resolved.
Page 5 - Horace Dickerson


      •   In one case, an SSA employee allegedly accessed earnings information from
          SSA’s systems on the records of her ex-spouse and his wife to seek increased
          child support payments. The case file contained documentation to remove
          suspicion for accessing one of the SSNs; however, there was no documentation
          on the second SSN.

      •   The remaining two cases involved poor customer service. In both cases, there
          was no evidence in the files that action was taken to determine whether the
          allegations were properly resolved.

The Dallas Region was unable to locate 16 case files for allegations received from
sources other than OIG. All of these cases had been referred to CSI for action and
were recorded in its control log. CSI staff informed us that the files had been destroyed
to make room for additional files. CSI’s control log indicated that most of these
allegations involved employees’ improper access to SSA’s system to query or update a
relative’s record. CSI’s procedures for fraud allegations require that it retain case files
for 7 years after the final action is taken.6

Retention of Control Logs

The ORC did not have a complete list of allegations received from October 1, 2000
through March 27, 2002. The ORC did not have a complete list because, on March 28,
2002, the ORC began using the Southwest Region Correspondence Control system to
track its allegations, and it did not retain its control log from its previous tracking system
when it started using the new one.7 SSA’s policy requires that control logs be retained
for 2 years.8 Consequently, we were unable to determine whether non-OIG allegations
the ORC received were properly controlled, assigned, and resolved.




6
    CSI, Dallas Region VI, Operating Procedures/Workflow: Employee-related Allegations (FRAUD).
7
  CSI also did not comply with the record retention requirement. CSI’s noncompliance is discussed under
the section entitled, Tracking Allegations Received, in this report.
8
    Operational and Administrative Records Schedules, CMS-02.01.00, Control Logs, 09-01-92.
Page 6 - Horace Dickerson


MANAGEMENT CONTROL WEAKNESSES

Access to Sensitive Information

The ORC did not restrict access to its allegations database. The ORC used a
web-based system on SSA’s Intranet to log all allegations it received for development.
The log contained allegations from all sources including the OIG. While there was no
apparent link to the web site from SSA’s main web page, access to the information was
not restricted and could be accessed by anyone who had access to SSA’s Intranet.
Access to the allegations database should be restricted to authorized individuals.
Without restricted access, there is no assurance the allegation data are safeguarded
against unauthorized use.

Tracking Allegations Received

Federal regulations prescribe that management controls should ensure access to
resources and records is limited to authorized individuals and transactions are promptly
recorded, properly classified, and accounted for.9 Although CSI used a restricted
access electronic database to log the receipt of allegations, the database did not have a
field for a sequential control number to track each allegation. A sequential control
number would ensure that each allegation is assigned a unique number to properly
account for all allegations.10 At least two allegations were deleted from the log before
the required retention period. CSI staff advised us that these cases were probably
deleted from the database in an effort to clean up closed cases. Since sequential
numbering was not used, there was no trail to alert management of possible
unauthorized removal of information. If sequential numbering of entries on the log had
been used, when the entries were deleted, there would have been a break in the
numerical sequence to alert management of potential tampering of data.

We also found that CSI did not record allegations received from the OIG in a timely
manner. CSI recorded allegations in its control log when they were assigned to an
analyst for review rather than when they were actually received. When allegations are
not logged as received, there is a risk an allegation may not be properly tracked. In one
case, the allegation was received from OIG but was never recorded in the control log.




9
  Office of Management and Budget Circular, A-123, Attachment II, Establishing Management Controls
(as revised June 21, 1995).
10
 General Accounting Office, Standards for Internal Control in the Federal Government,
GAO/AIMD-00-21.3.1 (11/99).
Page 7 - Horace Dickerson


CONCLUSION AND RECOMMENDATIONS

While SSA’s policies and procedures for addressing employee-related allegations were
generally adequate, the Dallas Region needs to address identified weaknesses
concerning forwarding all potential criminal violations to OIG, documenting evidence,
tracking allegations received, restricting access to sensitive information, and complying
with record retention requirements.

Accordingly, we recommend the Dallas Regional Office:

   1. Ensure allegations with potential employee criminal violations are to be referred
      to the OIG.

   2. Maintain evidence (that is, case development, documentation, and control logs)
      that supports the clearance of employee-related allegations.

   3. Use a password to restrict access to ORC’s allegation control log to authorized
      personnel.

   4. Use sequential control numbers for each allegation and record allegations in the
      control log when received.

AGENCY COMMENTS AND OFFICE OF THE INSPECTOR GENERAL
RESPONSE

SSA agreed with all of the recommendations. Regarding recommendation 1, SSA
stated that training had been provided to CSI staff to ensure that analysts are properly
documenting cases prior to referral to the Employee and Labor Relations Specialist and
to officially refer cases with potential criminal violations to OI so that a written
declination is part of CSI's file. Concerning recommendation 2, SSA stated that it has
now emphasized the need to maintain evidence and added this as a requirement to the
CSI workflow procedures. With respect to recommendation 3, SSA stated it is
designing a new electronic control file, which will restrict access by authorized employee
name, position, and PIN. In the meantime, SSA is applying security measures to the
existing control system that will restrict use, based on the user’s authority to access the
records. Finally, about recommendation 4, SSA stated it now uses sequential control
numbers and added that allegations from the Hot Line that come to the component
email box will now be logged in and assigned by the Team Leader or Center Director.
We believe SSA's response adequately addresses our recommendations and look
forward to receiving the corrective action plans. See Appendix E for the full text of
SSA’s comments.



                                                 S                for
                                                 Steven L. Schaeffer
                               Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Flowcharts

APPENDIX D – Employee Violations

APPENDIX E – Social Security Administration Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                     Appendix A
Acronyms
CHR        Center for Human Resources
CSI        Center for Security and Integrity
FY         Fiscal Year
OI         Office of Investigations
OIFD       Office of Investigations Field Division
OIG        Office of the Inspector General
ORC        Office of the Regional Commissioner
POMS       Program Operations Manual System
SSA        Social Security Administration
SSN        Social Security Number
                                                                        Appendix B
Scope and Methodology
We limited our review to Fiscal Years (FY) 2001 and 2002. This included 37 referrals
from the Office of the Inspector General (OIG), 70 employee-related allegations from
sources other than the OIG, and the 5 potential criminal violation cases identified from
the list of adverse actions processed by the Center for Human Resources’ (CHR)
Employee Relations Staff.

To accomplish our objectives, we:

   •   Reviewed the following criteria:
       • Office of Management and Budget Circular A-123, Management
         Accountability and Control,
       • Program Operations Manual System,
       • the Social Security Administration’s (SSA) Administrative Instructions Manual
         System,
       • Annual Personnel Reminders, and
       • Standards of Ethical Conduct for Employees of the Executive Branch.

   •   Obtained the database of allegations processed by the OIG during FYs 2001 and
       2002 and identified those listed as employee-related.

   •   Interviewed officials within the Office of the Regional Commissioner (ORC),
       Center for Security and Integrity (CSI), and CHR in Dallas, Texas.

   •   Reviewed ORC and CSI control logs to identify employee-related allegations
       from sources other than the OIG.

   •   Reviewed the 97 adverse actions processed by the CHR Employee Relations
       Staff to identify potential employee-related allegations.

   •   Reviewed ORC and CSI documentation for the development of evidence related
       to allegations received from the OIG and other sources.

   •   Reviewed documentation processed by CHR for the development of evidence
       applicable to adverse actions.

We performed field work at the SSA regional office in Dallas, Texas, and the OIG in
Baltimore, Maryland, from April through August 2003. We determined that the
computerized data used were sufficiently reliable to meet our audit objectives. The
entity reviewed was the Dallas Regional Office under the Deputy Commissioner for
Operations. We conducted our review in accordance with generally accepted
government auditing standards.
                                                                                                                                                Appendix C
Flowcharts
                                                            Allegation Referral Process
                                                Office of the Dallas Regional Commissioner
                                                                                            Office of       Regional
                             Office of the Regional            OIG Office of              Hearings and    Commissioner            Area
         Source                  Commissioner                  Investigations            Appeals (OHA)   Executive Officer      Directors


                                                   No
                                       Is
                                 allegation
        Telephone                   fraud
           calls                                   Yes
                                  related?
         from the
          public
                                                                Investigates
                                       Is                            for
                                 allegation        Yes          prosecution
                                    fraud
                                  related?                                                Develops
                                                                  OHA                       OHA
                                                                                           cases
                                           No
           OIG                                                                                            Reviews high
          Hotline                      Is                           High profile                          profile cases
                                 allegation                                                               and sends to
                                     high                                                                       Area
                                 profile or                                                                 Directors
                                    OHA?                                                                                     Coordinates with
                                                                    No
                                                                                                                                 manager
                                                                                                                               to determine
         Other than                Reviews                                                                                       outcome.
        OIG (emails               response
         and letters
        from public)
                                                                                                                                Responds to
                                   Finalizes                                                                                     ORC (non
                                                                                                                                 telephone
                                                                                                                                    calls)


                                     OIG                                                                                      Response
                       Yes         Hotline               Yes
                                                                                                                              from ORC
                                 response?



                                      No



                                   Files
                                 Response




                                                                                   C-1
 CENTER FOR SECURITY AND INTEGRITY ALLEGATION REFERRAL
                      WORKFLOW
                DALLAS REGIONAL OFFICE
                                                             Source




Office of the Inspector
                                                             Non-OIG                               Telephone
     General (OIG)
                                                          Internal emails                     Internal phone calls
          Email




   Component Box for
   Center for Security
   and Integrity (CSI)
    Email Allegations




                            Team Leader
                     -receives allegation through                                CSI
                         component box and                                     Director
                          assigns allegation




                                                              Analyst
                                                    -logs and develops case
                                                               notes
                                                      -makes determination
                                                        of allegation




                                                          Is allegation
                                                             -Fraud,
                  Fraud                                -Unsubstantiated or                Administrative Action
                                                      -Administrative Action
                                                            Related?




                                                         Unsubstantiated




    Special Agent-in-Charge                                    OIG
                                                    -receives response from      Employee Relations Specialist
       -OIG Field Division
                                                               CSI




                                                              C-2
                                                                                           Appendix D
Employee Violations
LIST – EMPLOYEE POTENTIAL VIOLATIONS (Program Operations Manual
System, GN 04112.005D)
Employee violations include but are not limited to situations in which an employee is suspected of willfully
    •   acting as an agent or attorney for prosecuting any Social Security claim before the Commissioner
        while an employee;
    •   disclosing without authorization any confidential information in violation of the Social Security Act
        or the Privacy Act of 1974;
    •   obtaining or attempting to obtain confidential information under false pretenses;
    •   making or causing to be made any false representation concerning the requirements of the Social
        Security Act or related provisions of the Internal Revenue Code;
    •   asking for, accepting, or agreeing to accept anything of value from a third party in return for
        executing or influencing the performance of official duties;

    •   participating in the planning or execution of any scheme or other activity under which a financial or
        other advantage improperly accrues or could accrue to any person or organization at the expense
        of the Government or parties with whom the Government may contract or otherwise deal;
    •   stealing or otherwise illegally disposing of refund remittances, Government checks, cash, directly
        deposited funds, or other obligations;

    •   illegally generating Social Security checks or depositing funds electronically to oneself or another;
    •   stealing or mutilating Government records, or destroying or removing them without authorization;
    •   violating conflict-of-interest laws as described in the Ethics in Government Act, the Standards of
        Ethical Conduct for Employees of the Executive Branch, and the SSA Guide on Employee
        Conduct;
    •   making or causing to be made any false statement or representation about wages, earnings, or
        self-employment income in connection with claims or the maintenance of earnings records;

    •   making or causing to be made any false statement or representation of a material fact in an
        application for payments or for a disability determination, or at any other time for use in
        determining rights to payments;
    •   concealing or failing to disclose a fact or event affecting initial or continued eligibility for payment;
    •   furnishing or causing to be furnished false information about identity in connection with a claim,
        issuing a Social Security number, or maintaining an earnings record;
    •   selling Social Security numbers/cards; or
    •   unlawfully disclosing, using, or compelling the disclosure of a Social Security number.
                                    Appendix E
Social Security Administration Comments
                                         SOCIAL SECURITY

MEMORANDUM

Date:      February 5, 2004

To:        Steven L. Schaeffer
           Assistant Inspector General
           For Audit

From:      Horace L. Dickerson, Jr.
           Regional Commissioner
           Dallas

Subject:   Dallas Region Reply: Employee Related Allegations (A-06-03-13075)


           Thank you for the opportunity to review the OIG Audit of Employee-Related Allegations in
           Region VI (A-06-03-13075). We consider all employee allegations to be very serious. It is
           important that allegations are fully and promptly developed so that an employee can be cleared if
           the allegation is unsubstantiated or pursued criminally or administratively if substantiated.

           We make every effort to ensure allegations with potential employee criminal violations are
           referred to the OIG and will continue to do so. In Dallas, we work closely with OIG OI and
           appreciate their support and assistance.

           We appreciate your staff’s review of the employee related allegation process in our Region and
           their recommendations which will help strengthen our controls and referral process. Our
           comments are attached. If members of your staff have questions, please have them call Carol
           Martinez at 214-767- 3585 in the Center for Security and Integrity, Management and Operations
           Support.


           Attachments




                                                         E-1
                  RESULTS OF REVIEW AND RECOMMENDATIONS

The Dallas Region did not refer two potential criminal cases to the OIG for investigation.

This result related to two specific cases:
   • One allegation involved an SSA employee who allegedly completed and signed
       claimants’ signatures on low error profile redeterminations and cleared one overpayment
       waiver over $2,000 without management approval. After receiving the finding, the Center
       Director (CD) for the Center for Security and Integrity (CSI) reviewed the CSI folder and
       the Center for Human Resources (CHR) folder. The CD recalled that the case had been
       discussed with the Special Agent in Charge prior to the referral to CHR. After a
       discussion of the facts, the decision was made to handle this case as a performance issue.
       However, documentation of this discussion was not in the file. A proposal to terminate
       was issued to the employee based on not following SSA policy and procedure. The
       employee failed to contact the claimants to obtain updated information to complete form
       SSA-8202. The claimants stated they did not sign the SSA-8202 nor did they give
       anyone permission to sign the form for them. The inaccurate information shown on the
       SSA-8202 appeared to have been obtained from aged information from other SSA
       sources. The employee elected to take early retirement rather than being terminated.
       After receipt of the audit findings, CSI asked the Office of Investigation (OI) to review
       the allegation. OI replied that after reviewing they determined that the matter did not rise
       to a potential criminal issue for prosecutorial consideration by the U.S. Attorney’s office.
       The OI also stated that this case had been discussed with the US Attorney during the OIG
       audit and the US Attorney had declined the case and stated that this matter should be
       handled administratively by the Agency. Training has been provided to the CSI staff to
       ensure that analysts are properly documenting cases prior to referral to the Employee and
       Labor Relations Specialist. In addition, the CSI analysts have been trained to officially
       refer cases with potential criminal violations to OI so that a written declination is part of
       CSI's file.
   •   The second case involved an employee discarding SSA records without authorization.
       CHR did not refer the case to OIG prior to taking administrative action. During the audit,
       OI informed the auditors that the allegation in question did not rise to the level that would
       merit a formal criminal investigation. Disciplinary action was taken to demote the
       employee to a lower grade. We concur with the finding that OI should have received the
       case for investigation before administrative action was taken, although OI agreed that the
       review revealed the action was appropriate. The CHR Team Leader took immediate
       action to inform the Employee and Labor Relations Specialists of this finding and
       provided a copy of POMS reference GN 04112.005 for future use.




                                                E-2
There was inadequate case documentation to support whether allegations were properly
resolved for 20 of 107 allegations.

•   Four cases were referred by the Hot Line. In one case, two SSNs were involved.
    Although traffic documentation was in file, the analyst had not copied the ATS request
    and attached it to the ATS output. In this case, since there were no hits on the SSN the
    output was blank. Therefore, the absence of the ATS request made it appear as though
    traffic on the second SSN had not been requested. During the audit, we redeveloped the
    ATS request to show that the case had been accurately processed. We have now
    emphasized the need to always print the ATS request and attach it to the output. This
    requirement will also be added to CSI workflow procedures.

•   The Dallas Region was unable to locate 16 case files. The 7-year retention refers to
    procedures for fraud allegations. The control log in CSI tracks all audit trail requests
    including those that are not employee related. The control log indicates that the unable
    to locate cases were not fraud allegations but systems violations (sanctions), no violation
    detected or non-employee cases. CSI refers substantiated systems violations (not
    criminal) directly to the employee relations staff in CHR. This staff maintains the official
    files related to administrative actions. Of the sixteen files, ten official files related to the
    systems violations were housed in CHR. Of the other six, the case control log showed
    that three cases involved non-employee audit trail requests and three involved systems
    violation allegations which were closed with no violations detected. We were unable to
    locate the six case files referred to above. We have improved our case control log to add
    a sequential numbering system, and the capability to sort based on type of case i.e., fraud,
    systems sanctions or both. This will assist our future reviews of employee-related cases.
    We will also review our workflow and address the retention period for audit trail requests
    involving unsubstantiated systems allegations (administrative). The CSI analysts have
    been trained to ensure that appropriate evidence which supports the clearance of
    employee-related allegations is maintained in the CSI folder.


The ORC did not retain control logs of allegations received.

The original ORC Action Item Flow Chart reviewed during the audit documented that
employee related allegations are entered into the ORC Correspondence Control System,
assigned a number and due date, entered into a paper action folder, and filed behind a due
date. While an additional action also indicated that the item “is cleared” out of the
Correspondence Control System and paper log, development documentation of the allegation
remain housed on the electronic OPTIC control. This step was misleading in that the
statement read “cleared out,” while the actual result is a “close out.”

We acknowledge that the wording in the flow chart should be revised to more accurately
document how the control log is structured and maintained. We amended the flow chart to
document this clarification and have also begun the development of a locally controlled
electronic file.




                                              E-3
The ORC’s Intranet database did not have adequate safeguards to prevent unauthorized
access to employee allegations.

We agree that our current Intranet database does not adequately restrict unauthorized access
to employee allegations. The limited user access instituted—highly restricted instruction and
knowledge of web address--reduced the likelihood that unauthorized usage would occur.
However, we agree that additional safeguards are necessary to limit access. We are designing
a new electronic control file that will restrict access by authorized employee name, position,
and PIN. In the meantime, we are applying security measures to our existing control system
that will restrict use, based on the user’s authority to access the records.

Retention of Control Logs

The ORC did not have a complete list of allegations received from October 1, 2000 through
March 27, 2002.

The allegations received from October 1, 2000 – March 27, 2002 were closed out on the
electronic control file but paper files of completed case documentation were retained. The
Region maintains hard copies of files for two years, per SSA policy. An electronic version of
the allegations is also readily available, but per the response above, the electronic controls
will have to be upgraded with additional security assurances. We are designing a new
electronic control file that will augment the hard copy documentation.

CSI did not have an adequate allegation tracking system.

There were two findings in this area:

 •   The database did not have a sequential control number. This has been fixed. We now
     have a sequential control number.
 •   In one case, an allegation was received from the Hot Line but did not appear on the
     control log. Allegations from the Hot Line come to the component email box and will
     now be logged in and assigned by the Team Leader or Center Director.




                                           E-4
                                                                          Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Paul Davila, Director, (214) 767-6317

Acknowledgments
In addition to those named above:

   Lela Cartwright, Auditor-in-Charge

   Wanda Renteria, Auditor

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-06-03-13075.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General

                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
